RB#AJ33174

IN THE COFNTY COURT OF OMAHA, DOUGLAS COUNTY, NEBRASKA

^

STATE OF NEBRASKA)

)
COUNTY OF DOUGLAS)

AFFIDAVIT AND APPLICATION
FOR ISSUANCE OF A SEARCH WARRANT
FOR CELLULAR PHONE ItECORDS

The complaint and affidavit of Officer Derek MOIS #1573, on this 14th day ofFebmary,
2017, who, being first duly sworn, upon oath says:

That the officer has just and reasonable grounds to believe, and does believe that there is
concealed or kept as hereinafter described, the following property, to wit:

A. The following customer or subscriber account mformatioa for each accoimt registered to
or associated with the following number(s); 402-739-4520 and 402-850-5695, for the
time period between the dates of Thursday December 1 2016 and Tuesday February
14th 2017:
1. Subscriber names, user names, screen names, or other identities;

2. Mailing addresses, residential addresses, business addresses, email addresses, and
other contact information;

3. Local and long distance telephone connection records, or records of session times
and durations;

4. Length of service (including start date) and types of services utilized;

5. Telephone or insti-ument number or other subscriber number or identity, including
any temporarily assigned network address;

6. Means and source of payment for such service (including any credit card or bank

,-c-'

account number) and billing records.

B. All records and other information relating to accozmt(s) and time period in Part A,
including:

1. Records of user activity for any connections made to or from the account,

including the date, time, length, and method of connections, data transfer volume,
user name, and soiirce and destination Internet Protocol address(es);

2. Telephone records, including caller identification records, cellular site and sector
information, global positioning system (GPS) data, Per Call Measurement Data
(for Voice, SMS, Text Message, and Data), Reveal Report, roaming data, real
time data (RTD), utilizadon of other networks data, and cellular network
identifying information (such as the IMSI, MSISDN, IMEI, MEID, or ESN);
3. Non-content information associated with the contents of any communication or

file stored by or for the account(s), such as the source and destination email
addresses and IP addresses;

4. Correspondence and notes of records related to the account(s).
5. Cellular site and sector guide, for the time period requested above.

That said property is concealed or kept in, on, or about the following described

c

5

r:\

to wit:

)

FEB

SPRINT CORPORATION
6480 Sprmt Parkway
u

Overland Park, Kansas 66251

That said property is under the control or custody of:
287

1 ^r?
-JU

^ppthrfOC C.

Custodian of Records

^y,

That the following are the grounds for issuance of a search warrant for said property and
the reasons for the officers' belief to wit:

On December 23 2016 at approximately 1741 hours Omaha Police Officers were dispatched to
18139 Tammy Trail, Omaha, Douglas County, Nebraska in reference to the report of a shooting.
Upon arrival Officers located a male victim identified as Michael R. BRWKMAN (W/M DOB:
09/17/1966) with a gunshot wound to the chest. BRINKMAN was transported to the University
of Nebraska Medical Center where he later died as a result of his injuries.
Officers determined at the time of the shooting event the victim was home with his girlfriend

Kirn MILIUS (W/F DOB: 12/20/1971) and his son Seth BRINKMAN (W/M DOB: 11/08/2000).
MILIUS would state that at approximately 5:30 pm the victim and their son Seth were getting
ready to go out to eat when she answered a knock at the door. MILIUS would state when she
answered the door and would be confironted by two unidentified masked suspects armed with
guns who began demanding money. MILIUS stated one suspect was a black male about 5'10 to
6'0" in height, heavy set with a "thick neck" and stubble on his face. MILIUS would state this
suspect was approximately 220 to 250 pounds. MILIUS stated the second suspect was a black
male and described him as being taller and lighter than the first suspect. MILRJS described this
suspect as bemg approximately 6'0" to 6'3" and approximately 180 pounds.
f^,

Seth BRDSJKMAN would state at approximately 5:30 pm he was taking a shower preparing to go
out to dinner with his parent when he heard his mother screaming. Seth would state he would
come to see two intmders armed with handguns. Seth would describe one suspect as being a
black male approximately 6'0" to 6'1" in height and being heavy set with a big gut and wearing
a mask. Seth would describe the second suspect as being approximately 6' 1" to 6'2" and having
a thinner build than the first suspect.
During the subsequent scene investigation Investigators would locate items determined to have
been dropped by one of the suspects during the physical altercation with the victim. Investigators
and Forensic Investigations personnel would locate remnants of fast food and packaging items,

includmg a partially eaten piece of bread. Forensic Technicians would collect a swab for possible
DNA from the bread under EV#20.

Durmg a c^ivass of the neighborhood Officers located exterior cameras on 18230 Tammy Trail.
Investigators were able to determme those cameras did cover the victim's residence. Crime lab
personnel were able to recover footage from that system which upon review did capture what
appeared to be a newer model white SUV traveling eastboimd on Tammy Trail and pull into
18139 Tammy Trail parking facing westbound at 5:33 pm at the victim's residence(just prior to
the shooting event). Video then captures the same vehicle leaving at approximately 5:41 pm.

Video also shows what appears to be the same vehicle slowed in front of the victims reside ^ttn
4:55 pm continues eastbound into the circle, turn around and drive back by 18139
at 4:56 pm.

FEB

1

20^7
L!

/

9ftR

Investigators believe the vehicle in the video is a white 2015-2016 Dodge Durango SUV.
Investigators believed fi-om prior experience that it was possible suspects could have used a
^^-:

rented vehicle while committing this crime.
7th

On December 27l" 2016 EV#20, the possible DNA swab collected from the partially eaten bread,
was submitted to UNMC Human DNA Laboratory for testing.

On December 28 2016 Officer CAHILL served a subpoena to Budget Car rental requesting
information related to any leased 2016 Dodge Durango SUV in the Omaha area during the time

frame of December 23 2016. Budget Car rental would return information that included a rental
agreement to a Camell WATT (B/F DOB: 03/17/1 979) of a 2016 Dodge Durango SUV bearing

Texas plates GSB-1580 from the dates of December 13th 2016 to December 27th 2016 (Rental
Agreement: AVIS RA 608359032). Affiant Officer observed within the provided rental
agreement that WATT provided a contact number of 402-739-4520. Affiant Officer learned this
number is currently assigned to Sprint Corporation.

On January 14th 2017 Officer CAHILL would conduct an interview with WATT. WATT would
actaiowledge renting the aforementioned 2016 Dodge Durango SUV from Avis/Budget on

December 13 2016. WATT would also state that durmg the course of her having that vehicle
she loaned the vehicle out on miiltiple occasions to family and friends. WATT would state one of
those people was an acquaintance by the name of "Lee JENNINGS".

On January 23 2017 Investigators were notified of a mainly single source male DNA profile

f~'1'

was located from testing ofEV#20.

On January 27 2017 the UNMC Human DNA Laboratory submitted their findings to the
Nebraska State Patrol for CODIS entry and search.
On Febmary 13, 2017 Investigators were notified of a possible CODIS identification to the

submitted sample was that belonging to LeAndre R. JENNINGS III (B/M DOB: 09/30/1987).
On February 13, 2017 subsequent research utilizing the NCJIS database, Affiant Officer
observed that JENNINGS has a physical of 6' and being approximately 300 pounds. Affiant
Officer also observed that JENNDslGS was currently on US Probation begmning 04/10/2015.
Affiant Officer observed IENNINGS was currently assigned to the Omaha US Probation Office
under Officer Mike SLIVA. Af&ant Officer spoke to Officer SLP/A and he would provide a
current cell phone number for IENNINGS of 402-850-5695. Affiant Officer learned this number
is also currently assigned to Sprint Corporation.

Affiant Officer believes data held by Sprint Corporation will aid in determining the possible
relationship between the aforementioned individuals and provide details on the events which lead
to the death of Michael R. BRINKMAN.

•^

Wlien cell phones are used they create a digital record of the user's activity. This relevant data
can come from data produced by the operator when they input information as well as
inconspicuous data files which are created and saved automatically by the device. This
information can remain stored on the device for multiple years provided there has not been
intervention which removes the data. Even some data which has been deleted ca^^¥fp€i^@¥^4ii nr"ir'

using forensic tools. | g^^^-^USliy^y

FEB21Z017

I

IISs^^miQ^

From training, experience and research Affiajat Officer is aware that the data on cell phones can

•^

provide invaluable insight for criminal investigations. Cell phones are used for communication,
access to information, socialization, research, entertainment, shopping and other functionality. In
addition to personal use, cell phones are often used as tools in criminal activity. Affiant Officer
is aware of numerous instances where cell phones were used by participants m crimes to
communicate via voice and text messaging, occasions when they took photographs of themselves
with weapons and/or illegal narcotics, tunes when they created videos of their criminal activity
and instances when the Internet was used to research crimes they participated in, just to name a
few. As such a cell phone can serve both as an instrument for committing a crime, as well as a
storage medium for evidence of the crime.

Cell phone data can assist investigators in determining the culpability of participants in criminal
investigations. This is because the data can potentially provide a wealth of information that can
assist in determmuig the motivation, method and participants involved in an incident
Information on the devices can provide invaluable insight to the who, what, when, where and
why an incident occurred.

Because most operations can be performed on a cell phone almost instantly data can be created
in a matter of moments which woiild be gennane to the incident being investigated. The data can
be created intentionally or accidently by the user, or automatically by the device itself as apart of
its regular functioning. Affiant Officer seeks to complete a comprehensive and unbiased
examination of the data on the device for information which could aid in the mvestigation;

seeking only prescribed infonnation would jeopardize the completeness of the search as it is
typically unknown how the cell phone was used or the technical ability and intent of the user
before the device has been examined.

The below examples are only a sample of the many ways a cell phone can assist investigators
and types of data which are bemg sought by Affiant Officer. A full all-inclusive list would be
impossible due to the ever-increasing development of cell phones and their applications.
Phone information, configurations, calendar events, notes and user account information
which can be used to identity or coiifirm who owns or was using a cell phone. Because of their
small size, cell phones can easily be passed from one person. As such it is necessary to document
evidence that reveals or suggests who possessed or used the device. This evidence is akm to the
search for venue items when executing a search warrant at a residence.
Call logs which establish familiarity between people mvolved in an incident. These
records are consistently stamped with dates and times which can be significant regarding the
reconstmction of the timeline of events regarding an investigation. Associated contact lists stored
in the device can provide names to correspond with voice calls as well as other fonns of
communication. This information can also be invaluable to establish conspirators, witnesses and
suspect information.
Commumcation records from SMS and MMS messaging, chats, instant messages and EMails can provide invaluable insight to establish an individual's level of culpability and
taiowledge regardmg an investigated mcident. It is not uncommon for users to send and receive
dozens and even hundreds of messages a day which document the person's activities and can aid
in completing an investigation.

~\
"*„,

Data from associated supplemental software applications (apps), both standard and
manually installed, stored on the cell phone can demonstrate the user's association with
investigated people, locations and events. Cell phones have the ability to run apps which allow
them to increase their functionality. Common programs include social media applications such as
Facebook and Twitter as well as messaging applications Kik and Hello SMS to name a few.
These applications are increasingly used as alternative methods for users to communicate from
the standard messaging service as they offer additional functionality. Many of these applications
are able to determine the user's geographic location which can be instrumental
S3.

investigation.
FEB
^nn

In

Z01?
-a=^n-

^

'^

Media files such as images, videos, audio and documents which provide a first-hand
documentation of actions regarding an event. Additionally files can contain embedded metadata
that show additional information which is valuable to mvestigators such as when and where the
file was created. Cell phones have the ability to create, store and exchange media with other
\.,.

devices and computers.

Internet browsing history including bookmarks, browser cookies and other associated
cache files stored on cell phones can demonstrate the planning or desire to participate in a crime
by documenting the viewing ofwebsites associated with the incident.

Cell tower connections, GPS dataWiFi, Bluetooth and synchronization logs can associate

the cell phone with being in proximity of a location or other digital devices. Viewing of this data
can demonstrate that the device, and thus also its user, was in a location associated with an

incident.

The user dictionary on a phone contams user inputted entries such as names and

uncommon words. Presence of these records can demonstrate familiarity with the crime being

investigated.

Affiant Officer believes there to be pertment information contained within the requested records
and request that this Court issue a search warrant for the infonnation provided in Part A and Part
B which is stored with SPRINT CORPORATION, for the coiumunications data from the
aforementioned phone number will aid in ascertaming the location of the subscriber for phone
number(s) 402-739-4520 and 402-850-5695 and confirm the identity of the subscriber(s).
WHEREFORE, the officers pray that a Search Warrant may be issued according to law.
's
Omaha Police Officer

SUBSCRIBED AND SWORN to me this 14th day of February, 2017.

y—
Judge of the Douglas County Court

s°n

"•te,.-^

1^1

FEB
a
9Q1

y-i.'

•E—J

Ss-iS!

RB# AJ33174

-^ IN THE COUNTY COURT OF OMAHA, DOUGLAS COUNTY, NEBRASKA

/

^:

STATE OF NEBRASKA)
)
COUNTY OF DOUGLAS)

SEARCH WARRANT FOR
CELLULAR PHONE RECORDS

TO: OMAHA, NEBRASKA POLICE OFFICER Derek MOIS #1573.

This matter came on for hearing on the 14 day of February, 2017, upon the sworn

application and affidavit for issuance of a search warrant of Officer Derek MOIS, and the Court,

being fully advised in the premises finds as follows:
\

That the Court has jurisdiction of this matter pursuant to the Sections 29-812, Nebraska

Revised Statutes, 1943, as amended.

That based upon the sworn affidavit and application of issuance of a search warrant of Officer

Derek MOIS dated the 14 day ofFebmary, 2017, that there is probable cause to believe that

located at SPRENT CORPORA.TION, an electronic communications service provider as
defined by 18 U.S.C. §2510(15) and Nebraska Revised Statute 86-277, AND/ORthe authorized
or designated agent for the custodian of records of the electronic communications service
provider, the following described records and other information for the following number(s);

402-739-4520 and 402-850-5695, to-wit:
f-

A. The following customer or subscriber acconnt information for eacli account registered to
or associated with the following number(s); 402-739-4520 and 402-850-5695, for the

time period between the dates of Thursday December 1 2016 and Tuesday February
14th 2017:

1. Subscriber names, user names, screen names, or other identities;

2. Mailing addresses, residential addresses, business addresses, email addresses, and
other contact infonnation;

3. Local and long distance telephone connection records, or records of session times
and durations;

4. Length of service (including start date) and types of services utilized;

5. Telephone or instrument number or other subscriber number or identity, mcluding
any temporarily assigned network address;

6. Means and source of payment for such service (including any credit card or bank
account number) and billing records.

B. All records and other information relating to account(s) and time period in Part A,
includmg:
'1
•:!.,V'

1. Records of user activity for any connections made to or from the accoimt,
including the date, time, length, and method of connections, data trans
m
user name, and source and destination Internet Protocol address(es);

9

\

nn

^-^

»

ni

2. Telephone records, including caller identification records, cellular sitej^id ^^r^ 1 ^ 111
information, global positioning system (GPS) data, Per Call Measureni^|it riata ____"_^^lji

(for Voice, SMS, Text Message, and Data), Reveal Report, roaming data, real

.r^.
•T

time data (RTD), utilization of other networks data, and cellular network
identifying mformation (such as the IMSI, MSISDN, IMEI, MEID, or ESN);
3. Non-content information associated with the contents of any communication or
file stored by or for the account(s), such as the source and destination email
addresses and IP addresses;

4. Correspondence and notes of records related to the account(s).

5. Cellular site and sector guide, for the time period requested above.

The Court finds that the applicant has offered specific and articulable facts showing that
there are reasonable grounds to believe that .the records or other information sought are relevant
and material to an ongoing criminal investigation.

AND, if found, to seize and deal with the same as provided by law, aad to make return of this
warrant to me within ten days after receiving the requested information set forth in Part A and
Part B.
YOU ARE, THEREFORE, ORDERED, pursuant to Title 18, United States Code,
Section 2703 (d) that SPMNT CORPORATION will, within fourteen (14) days of the date of
this
Order, turn over to the Omaha, Nebraska Police Department the records and other
information as set forth in Part A and Part B.
.-^

IT IS FURTHER ORDERED, that any other person, device, computer, and/or number
that is in communication with the target device shall be considered part of the criminal
investigation and shall require the disclosure of the data in Part A and Part B from any provider
of electronic communications services as defined by 18 U.S.C. §2510(15) and Nebraska Revised
Statute 86-277. This shall also include the target device roaming or utilizing any electronic
commiimcations service provider's network and/or anteimas, regardless of carrier or provider.
IT IS FURTHER ORDERED that SPRINT CORPORATION or any other
person/company, shall not disclose the existence this Order of the Court, or the existence of the
investigation, to the listed subscriber or to any other person, unless and until authorized to do so

by the Court.

IT IS FURTHER ORDERED, that execution of the Search Warrant be forthwith during

the daytime hours.

IT IS FURTHER ORDERED, that Omaha, Nebraska Police Officer Derek MOIS,
make return of this Search Warrant to me wifhui ten days after receiving the requested

information from the electronic communications service provider.

Given under my hand this 14 day ofFebmary, 2017.

Judge of the Douglas Count

^^

i>

13J^.

FEB 21 to" III

Ej^onj^L

